No. ________

In the Supreme Court of the United States
__________________
BIG PORT SERVICE DMCC,
Petitioner,
v.
CHINA SHIPPING CONTAINER LINES CO. LTD.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________

PETITION FOR WRIT OF CERTIORARI

__________________

JONATHAN A. HERSTOFF
Counsel of Record
JESSICA L. SBLENDORIO
HAUG PARTNERS LLP
745 Fifth Avenue
New York, NY 10151
(212) 588-0800
jherstoff@haugpartners.com
Counsel for Petitioner

July 31, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Petitioner Big Port Service DMCC (“BPS”) was
permanently enjoined from pursuing an arbitration
against Respondent China Shipping Container Lines
Co. Ltd. (“CSCL”) based solely on the district court’s
recognition of the decision of a Singapore court, which
the district court read as holding that BPS and CSCL
did not have an agreement to arbitrate. In reaching
this conclusion, the district court expressly declined to
determine whether this Court’s four-factor test
governing the grant of injunctive relief was satisfied.
Rather, following case law from the Second Circuit, it
concluded that an anti-arbitration injunction is
automatically warranted whenever a court finds that
the parties did not enter into a valid and binding
agreement to arbitrate. The Second Circuit affirmed.
This decision conflicts with the approach taken by the
First, Seventh, Eighth, Ninth, and Eleventh Circuits,
but is consistent with the Third and Fifth Circuits. For
example, the Eleventh Circuit has recognized that
there is no cause of action for “wrongful arbitration,”
and that anti-arbitration injunctions can be granted
only under the All Writs Act.
The question presented is as follows:
Whether the Second Circuit erred in recognizing a
cause of action for a party seeking to avoid arbitration
and in concluding that courts have remedial
power—untethered to any federal statute and
unconstrained by this Court’s precedents governing the
grant of injunctive relief—to issue injunctions against
arbitration.

ii
PARTIES TO THE PROCEEDING
Petitioner is Big Port Service DMCC (“BPS”). BPS
was respondent-appellant below.
Respondent is China Shipping Container Lines Co.
Ltd. (“CSCL”). CSCL was petitioner-appellee below.
RULE 29.6 STATEMENT
National Venture Group Ltd. owns Big Port Service
DMCC. No publicly held corporation owns 10% or more
of Big Port Service DMCC’s stock.
STATEMENT OF RELATED PROCEEDINGS
• China Shipping Container Lines Co. Ltd. v. Big
Port Service DMCC, No. 1:15-cv-02006-AT-DCF,
U.S. District Court for the Southern District of
New York. Judgment entered Mar. 29, 2019.
• China Shipping Container Lines Co. Ltd. v. Big
Port Service DMCC, No. 19-1111, U.S. Court of
Appeals for the Second Circuit. Judgment
entered Mar. 5, 2020.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
I.

The Agreements. . . . . . . . . . . . . . . . . . . . . . . . 2

II.

The Arbitration Proceeding. . . . . . . . . . . . . . . 4

III.

Proceedings in the District Court and in
Singapore . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

IV.

Proceedings in the Second Circuit . . . . . . . . . 9

REASONS FOR GRANTING THE WRIT. . . . . . . . 11
I.

The Courts of Appeals Have Reached
Conflicting Results as to When a Court Is
Permitted to Enjoin an Arbitration . . . . . . . 11
A. The First Circuit Has Found that the
Federal Arbitration Act Implies the
Power to Enjoin an Arbitration . . . . . . . . 12

iv
B. The Eighth, Ninth, and Eleventh Circuits
Have Found that a Court’s Power to
Enjoin an Arbitration Comes from the All
Writs Act. . . . . . . . . . . . . . . . . . . . . . . . . . 13
C. The Seventh Circuit Has Found that the
Propriety of an Anti-Arbitration
Injunction Is Governed by Traditional
Equitable Principles. . . . . . . . . . . . . . . . . 17
D. The Second, Third, and Fifth Circuits
Have Found that Courts Have a
Broad Remedial Power to Enjoin an
Arbitration . . . . . . . . . . . . . . . . . . . . . . . . 18
II.

This Case Is the Proper Vehicle for the Court
to Address This Important Issue . . . . . . . . . 22

III.

The Second Circuit’s Decision Is Incorrect. . 25
A. An Anti-Arbitration Injunction Is
Justified Only When the Conditions of the
All Writs Act Are Satisfied . . . . . . . . . . . 26
1. Because There Is No Cause of Action
for “wrongful arbitration,” the Second
Circuit Erred in Upholding the
District Court’s Grant of Substantive
Relief . . . . . . . . . . . . . . . . . . . . . . . . . . 26
2. The All Writs Act Would Not Have
Permitted the Issuance of an
Injunction Here. . . . . . . . . . . . . . . . . . 29

v
B. Even if the Power to Enjoin an
Arbitration Comes from a Source Other
than the All Writs Act, the Second
Circuit’s Decision Conflicts with This
Court’s Precedents . . . . . . . . . . . . . . . . . . 34
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(March 5, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Southern District of New York
(January 15, 2019) . . . . . . . . . . . App. 10
Appendix C Judgment in the United States
District Court Southern District of
New York
(March 29, 2019) . . . . . . . . . . . . . App. 34
Appendix D Statutes . . . . . . . . . . . . . . . . . . . .
9 U.S.C. § 3 . . . . . . . . . . . . . .
9 U.S.C. § 4 . . . . . . . . . . . . . .
9 U.S.C. § 16 . . . . . . . . . . . . .
28 U.S.C. § 1651 . . . . . . . . . .

App. 36
App. 36
App. 36
App. 38
App. 39

vi
TABLE OF AUTHORITIES
CASES
AT&T Broadband, LLC v. Int’l Broth. of Elec.
Workers, 317 F.3d 758 (7th Cir. 2003) . . . . . . . . 17
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011). . . . . . . . . . . . . . . . . . . . . . . 24
Citigroup, Inc. v. Abu Dhabi Inv. Auth.,
776 F.3d 126 (2d Cir. 2015) . . . . . . . 29, 30, 31, 32
Clinton v. Goldsmith,
526 U.S. 529 (1999). . . . . . . . . . . . . . . . . . . . . . . 31
D.H. Blair & Co. v. Gottdiener,
462 F.3d 95 (2d Cir. 2006) . . . . . . . . . . . . . . . . . 33
David L. Threlkeld & Co. v. Metallgesellscheft, Ltd.,
923 F.2d 245 (2d Cir. 1991) . . . . . . . . . . . . . . . . 24
Dorco Co. v. Gillette Co.,
C.A. No. 18-1306-LPS-CJB, 2019 WL 1874466
(D. Del. Mar. 18, 2019) . . . . . . . . . . . . . . . . . . . . 21
eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388 (2006). . . . . . . . . . . . . . 14, 15, 34, 35
Friends for All Children, Inc. v. Lockheed Aircraft
Corp., 717 F.2d 602 (D.C. Cir. 1983) . . . . . . . . . 25
Garanti Financial Kiralama A.S. v. Aqua
Marine & Trading Inc.,
697 F.3d 59 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . 9
Goldman, Sachs & Co. v. Golden Empire
Schs. Fin. Auth., 764 F.3d 210 (2d Cir. 2014) . . 20

vii
Goss Int’l. Corp. v. Man Roland Druckmaschinen
Aktiengesellschaft,
491 F.3d 355 (8th Cir. 2007). . . . . . . . . . . . . . . . 32
Guidotti v. Legal Helpers Debt Resolution, L.L.C.,
716 F.3d 764 (3d Cir. 2013) . . . . . . . . . . . . . . . . 28
Hall Street Assocs. v. Mattel, Inc.,
552 U.S. 576 (2008). . . . . . . . . . . . . . . . . . . . . . . 26
Hartley v. Stamford Towers Ltd. P’ship,
36 F.3d 1102, 1994 WL 463497
(9th Cir. Aug. 26, 1994) . . . . . . . . . . . . . . . . 16, 19
Hecht Co. v. Bowles,
321 U.S. 321 (1944). . . . . . . . . . . . . . . . . . . . . . . 15
Hoeft v. MVL Grp., Inc.,
343 F.3d 57 (2d Cir. 2003) . . . . . . . . . . . . . . . . . 33
Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79 (2002). . . . . . . . . . . . . . . . . . . . . . . . 21
In re Am. Express Fin. Advisors Sec. Litig.,
672 F.3d 113 (2d Cir. 2011) . . . . . . . 11, 18, 19, 20
In re Y & A Grp. Sec. Litig.,
38 F.3d 380 (8th Cir. 1994). . . . . . . . . . . 16, 17, 19
John Hancock Mut. Life Ins. Co. v. Olick,
151 F.3d 132 (3d Cir. 1998) . . . . . . . . . . . . . . . . 21
Klay v. United Healthgroup, Inc.,
376 F.3d 1092 (11th Cir. 2004). . . . . . . . . . passim
Miller Brewing Co. v. Fort Worth Distrib. Co.,
781 F.2d 494 (5th Cir. 1986). . . . . . . . . . . . . 21, 22

viii
Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc., 473 U.S. 614 (1985). . . . . . . . . . 25
Pa. Bureau of Corr. v. U.S. Marshals Serv.,
474 U.S. 34 (1985). . . . . . . . . . . . . . . . . . . . . . . . 31
PaineWebber Inc. v. Hartmann,
921 F.2d 507 (3d Cir. 1990) . . . . . . . . . . . . . . . . 21
Republic of Ecuador v. Chevron Corp.,
638 F.3d 384 (2d Cir. 2011) . . . . . . . . . . . . . . . . 10
Rodriguez de Quijas v. Shearson/Am.
Express, Inc., 490 U.S. 477 (1989) . . . . . . . . . . . 24
Shearson/Am. Express, Inc. v. McMahon,
482 U.S. 220 (1987). . . . . . . . . . . . . . . . . . . . . . . 25
Societe Generale de Surveillance, S.A. v. Raytheon
European Mgmt. & Sys. Co.,
643 F.2d 863 (1st Cir. 1981) . . . . . . . 12, 13, 19, 20
Trustmark Ins. Co. v. John Hancock Life
Ins. Co. (U.S.A.),
631 F.3d 869 (7th Cir. 2011). . . . . . . . . . . . . . . . 17
Weinberger v. Romero-Barcelo,
456 U.S. 305 (1982). . . . . . . . . . . . . . . . . . . . . . . 35
Wilton v. Seven Falls Co.,
515 U.S. 277 (1995). . . . . . . . . . . . . . . . . . . . 28, 29
Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7 (2008). . . . . . . . . . . . . . . . . . . . . . . . . 14
STATUTES
9 U.S.C. § 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

ix
9 U.S.C. § 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
9 U.S.C. §§ 9-13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
9 U.S.C. § 13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
9 U.S.C. § 16(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
9 U.S.C. § 16(b)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . 27
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1333(1). . . . . . . . . . . . . . . . . . . . . . . . . 8, 9
28 U.S.C. § 1651 . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 15
28 U.S.C. § 1651(a). . . . . . . . . . . . . . . . . . . . . . . . . . 31
OTHER AUTHORITIES
Jennifer L. Gorskie, US Courts and the AntiArbitration Injunction,
28 ARB. INT’L 295 (2012) . . . . . . . . . . . . . . . . 22, 23
INT’L CHAMBER OF COM., ICC DISPUTE RESOLUTION
BULLETIN 2018 ISSUE 2: EXTRACT 61 (2018),
https://cdn.iccwbo.org/content/uploads/sites/3/s
ites/3/2018/07/2017-icc-dispute-resolution-statistics.
pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Big Port Service DMCC (“BPS”)
respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Second Circuit.
OPINIONS BELOW
The Second Circuit’s summary order is found at 803
F. App’x 481 (2d Cir. 2020) and reproduced at App. 1-9.
The district court’s decision is unreported, but is found
at No. 1:15-cv-02006-AT-DCF, ECF No. 79 (S.D.N.Y.
Jan. 15, 2019) and reproduced at App. 10-33. The
district court’s judgment is found at No. 1:15-cv-02006AT-DCF, ECF No. 83 (S.D.N.Y. Mar. 29, 2019) and
reproduced at App. 34-35.
JURISDICTION
The judgment of the Second Circuit was entered on
March 5, 2020. App. 2. On March 19, 2020, this Court
issued an order providing, in relevant part, that the
deadline to file any petition for a writ of certiorari is
extended to 150 days from the date of the lower court
judgment. The jurisdiction of this Court is invoked
under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
9 U.S.C. §§ 3-4, 9 U.S.C. § 16, and 28 U.S.C. § 1651
are reproduced at App. 36-39.

2
STATEMENT OF THE CASE
I.

The Agreements

In September 2014, CSCL contracted with O.W.
Bunker China Ltd. (“OW China”) to supply marine fuel
oil (“bunkers”) for the MV XIN CHANG SU (the
“Vessel”). A-1488-89.1 OW China contracted with
another member of the OW Group, O.W. Bunker Far
East (S) Pte. Ltd. (“OW Singapore”) to arrange for the
fuel supply. A-183-84. OW Singapore then contracted
with BPS to supply the bunkers, and BPS provided its
Bunker Sales Confirmation, dated September 25, 2014,
which identified OW Singapore as the “Buyer” and
“jointly and severally [the Vessel], her masters, owners,
managers, managing owners, operators, disponent
owners, charterers and agents.”
A-1482-83.
Furthermore, the Bunker Sales Confirmation provided
that: (i) the parties have the right to seek legal action,
including arbitration against the “Owners/Buyer”;
(ii) BPS may seek a maritime lien against the Vessel;
and (iii) “ALL OTHER TERMS IN ACCORDANCE
WITH SELLERS’ GENERAL TERMS AND
CONDITIONS OF SALE.” A-1483. It further provided
that BPS “shall have the right to take any legal actions
before the courts in any country either to . . . pursue
the merits of a claim against the Owners/Buyer . . . by
New York arbitration clause of 15(b) of Bimco Standard
Bunker Contract . . . .” A-1483. Notably, Clause 18.1
of BPS’s General Terms and Conditions provides that

1

Citations to “App. __” refer to the appendix filed with this
Petition. Citations to “A-__” refer to the joint appendix filed with
the Second Circuit.

3
if any dispute should arise of the agreement, the
dispute “shall be referred to a three person arbitration
panel in the City of New York . . . .” A-1499.
On September 26, 2014, OW China issued its Sales
Confirmation to CSCL, which was subject to OW
Bunker Group’s Terms and Conditions of sales for
marine bunkers, and OW Singapore confirmed the
purchase of the bunkers from BPS in a Purchase Order
Confirmation dated September 30, 2014. A-1488-89; A1485-86. Notably, before the bunkers were supplied,
CSCL and the master of the Vessel and the Vessel’s
agent corresponded with BPS to arrange for delivery of
the bunker during October 2014, contrary to CSCL’s
later claims that it was not aware of BPS or the
contract to supply the bunkers to the Vessel by Qiao Qi
Ming, who was copied on such correspondence. A-150448; contra A-152-261 (Declaration of Qiao Qi Ming); A155, ¶ 9 (“CSCL did not become aware of the
contractual arrangement between OWB Far East and
Big Port until Big Port contacted CSCL by e-mail on 12
November 2014 seeking payment for its invoice
received an email from the Plaintiffs demanding
payment in the sum of US$1,768,000.”); see also A1488-89 (sales confirmation of order from OW China to
CSCL ).
On November 1 and 2, 2014, two barges completed
supplying the bunkers to the Vessel in Kavkaz, Russia
in November 2014. A-1551-52. On November 2, 2014,
BPS issued an invoice for $1,768,000 addressed to the
owners, masters, agent, operators, and charterers of
the Vessel. A-1554. BPS was never paid for the
bunkers supplied to the Vessel and, in December 2014,

4
sought to remedy this situation by arresting the Vessel
in an in rem action in Singapore, where the Vessel was
located. This action is discussed further below.
II.

The Arbitration Proceeding

On December 14, 2014, BPS served a Demand for
Arbitration on CSCL, as the owner of the Vessel,
relating to its claim for the unpaid amount of
$1,768,000 for the bunkers supplied to the Vessel in
accordance with the rules of the Society of Maritime
Arbitrators, Inc. (“SMA”). A-1556-82. CSCL did not
respond to the demand for arbitration.
BPS notified CSCL on December 26, 2014 that
CSCL’s failure to appoint an arbitrator by January 3,
2015 would result in appointment of an arbitrator on
its behalf in accordance with the rules of the SMA. A1584-85. CSCL failed to take any action to appoint an
arbitrator, and an arbitrator was appointed on its
behalf, but resigned in light of: (i) CSCL’s challenge to
the appointment; and (ii) assurances requested by BPS
that the arbitrator could not provide. A-42; A-58-61.
A new arbitrator was appointed for CSCL pursuant to
the rules of the SMA, and BPS asked that the
arbitration proceed forward, including with the
appointment of an arbitral chairman. A-63-64; A-73.
CSCL responded that it would “not take a position on
this issue out of concern that any position being given
could prejudice its position in the Singapore court
proceeding.” A-67. The panel subsequently confirmed
to CSCL and BPS that a tripartite panel had been
constituted to consider BPS’s claim. A-77-78; A-80.

5
On February 23, 2015, the chairman of the tribunal
sent an agenda to respective counsel for the parties for
the Notice of Initial Hearing to be held via conference
call on March 3, 2015. A-80-81. The hearing took place
on March 3, 2015, but CSCL did not participate. A-88.
Following the hearing, the tribunal issued an order
requesting that the parties address preliminary
matters, including the status and effect of the pending
litigation in Singapore and CSCL’s “amenability to
arbitration.” A-88-91.
III.

Proceedings in the District Court and in
Singapore

On March 17, 2015, CSCL filed a petition in the
United States District Court for the Southern District
of New York, seeking, among other things:
(i) preliminary and permanent injunctive relief
enjoining the arbitration proceeding that was ongoing
in New York; and (ii) a declaratory judgment that
CSCL and BPS did not have an agreement to arbitrate.
A-13-20. The district court issued an order on March
17, 2015 to set a hearing for BPS to show cause why it
should not be preliminarily enjoined from proceeding
forward with the ongoing arbitration, pending a
determination of CSCL’s declaratory-judgment claim.
A-92-94. The district court stayed the action brought
by CSCL in an order dated March 31, 2015 “pending
the Court’s receipt of the Singapore High Court’s
decision.” A-369-70.
Prior to CSCL’s initiation of the proceedings before
the district court, BPS, on November 19, 2014,
commenced an in rem admiralty action in Singapore to
arrest the Vessel. A-1589-94. The High Court of

6
Singapore issued a warrant for the arrest of the Vessel
by a registrar of the High Court on December 9, 2014.
A-1596-1600. Following the issuance of the warrant for
arrest of the Vessel, on December 15, 2014, BPS filed
an application in the High Court of Singapore (A-55081) to stay the in rem proceedings “in favour of
arbitration in New York,” pursuant to Clause 18.1 of
BPS’s General Terms and Conditions, which required
all disputes relating to the supply of the bunkers to be
heard by a tripartite panel of arbitrators in New York
subject to the federal maritime law of the United
States.
A-553; A-558-59.
CSCL filed its own
application seeking to set aside the in rem warrant for
arrest of the Vessel on December 29, 2014. A-582-83.
Following a hearing, the Assistant Registrar denied
BPS’s motion for a stay and granted CSCL’s motion to
set aside the warrant of arrest in an order dated
August 11, 2015 that set out the grounds for the
Assistant Registrar’s decision. A-584-629. The
Assistant Registrar, applying Singaporean law, found
that BPS could not establish a case of agency by
estoppel, but declined to award CSCL any damages for
the arrest. Id. ¶¶ 47, 77, 139. Regarding BPS’s
application for a stay, the Assistant Registrar applied
Singaporean law and found that there was no contract
between BPS and CSCL. Id. ¶¶ 79-80.
BPS appealed both adverse rulings, and CSCL
appealed the Assistant Registrar’s decision not to
award damages for the arrest. A-740-43. The
respective appeals were heard by a judge of the
Singapore High Court in September 2015, and the High
Court issued its decision on December 4, 2015. A-75795. The High Court reversed the Assistant Registrar’s

7
decision declining to award damages in connection with
the wrongful arrest, but otherwise affirmed. Id. BPS
then sought to appeal the High Court’s decision, but
the High Court denied BPS’s request. A-796-824.
Thereafter, BPS appealed this denial to the Singapore
Court of Appeal. A-825-29; see also A-836-37 (BPS’s
separate request for appeal to the Singapore Court of
Appeal). In November 2016, the Court of Appeal
affirmed the denial of leave for BPS to appeal with
respect to the denial of a stay, but granted BPS leave
to appeal the High Court’s wrongful-arrest order and
reserved judgment on BPS’s separate request to appeal
the High Court’s decision that BPS’s writ should be
struck out. A-830-35; see also A-836-837 (BPS’s
application that was held in abeyance in the November
2, 2016 order).
Following the November 2, 2016 order of the
Singapore Court of Appeal, BPS sought leave to serve
expert evidence on the effect of New York law and/or
federal maritime law of the United States with respect
to BPS’s claim. A-838-39. Although the Singapore
Court of Appeal denied BPS’s application and its
subsequent application for leave to serve expert
evidence on April 7, 2017, it emphasized that “we
stress that our view in this regard is not intended to be
a comment on the viability on [sic] the plaintiff’s claim
in arbitration proceedings overseas.” A-840-41.
After the decision from the Singapore Court of
Appeal, BPS and CSCL notified the district court of the
decisions by the Singapore courts, but the parties
disputed the effect of the Singapore proceedings on the
action pending in the district court. A-371-76. The

8
district court then lifted the stay, but denied counsel’s
request for a conference and directed the parties to file
a joint letter on how they wished to proceed, including
a request for CSCL to “specify whether it will seek to
withdraw its petition for preliminary injunction given
the posture of the case.” A-7. On February 5, 2018, the
parties submitted a joint letter outlining the issues
that required further briefing, including whether the
district court had subject-matter jurisdiction over
CSCL’s petition. A-522-23. The district court set a
briefing schedule on the issues of collateral estoppel
and/or res judicata and directed BPS to raise, as an
affirmative defense, any argument regarding the lack
of subject-matter jurisdiction. A-524.
Following briefing, CSCL moved for an order
recognizing and giving preclusive effect to the
Singapore Assistant Registrar’s final decision and
appeal court order against the Assistant Registrar’s
decision (collectively “Singapore judgment”). A-8. The
district court issued an order on January 15, 2019,
granting CSCL’s motion for declaratory judgment,
recognizing and giving preclusive effect to the
Singapore judgment, and permanently enjoining the
arbitration. App. 10-33. The district court found that
it had jurisdiction to hear the dispute pursuant to 28
U.S.C. § 1333(1). App. 16-18. The district court then
granted a declaratory judgment recognizing the
Singapore judgment and giving it preclusive effect, and
permanently enjoined the arbitration without further
analysis. App. 20-27; App. 29-32. Notably, the district
court stated that “it does not have to satisfy the
traditional factors courts consider in granting
injunctive relief in order to enjoin an arbitration[,]” and

9
held, in line with Second Circuit case law, that “[a]
court’s finding that there is no agreement to arbitrate
is all that is required to enable it to enjoin an
arbitration.” App. 31-32 n.15. Moreover, the district
court rejected BPS’s request for additional discovery on
the issue of whether a contract was formed between the
parties based upon its decision that the Singapore
judgment had preclusive effect. App. 30-31. Final
judgment was entered on March 29, 2019. App. 34-35.
BPS timely appealed the decision of the district court
to the Second Circuit on April 23, 2019. A-11.
IV.

Proceedings in the Second Circuit

After briefing and oral argument, the Second
Circuit affirmed the district court’s judgment. App. 19. Relying on its decision in Garanti Financial
Kiralama A.S. v. Aqua Marine & Trading Inc., 697
F.3d 59 (2d Cir. 2012), the Second Circuit agreed that
the district court had jurisdiction over the case under
28 U.S.C. § 1333(1). App. 4 (“That ‘mirror-image’
suit—BPS suing CSCL to compel arbitration on a
maritime contract—is one over which the federal courts
would have jurisdiction.”).
The Second Circuit further rejected BPS’s
arguments that: (i) the district court erred in giving
recognition to the Singapore judgment; (ii) comity does
not apply to preliminary decisions like the Singapore
judgment; and (iii) the district court’s decision violated
the “strong federal policy favoring arbitration.” App. 4.
The Second Circuit concluded that the Singapore
judgment resolved the issue of whether the parties had
agreed to arbitrate, and found that the Singapore
judgment was “a full decision addressing the existence

10
of the arbitration agreement at issue.”2 App. 5. The
Second Circuit also rejected BPS’s argument that
recognition of the Singapore judgment violates public
policy. App. 5.
The Second Circuit also rejected BPS’s contention
that the Singapore judgment did not consider the
relevant U.S. law or the arbitrability of BPS’s claims,
and that the question of arbitrability “was not
necessary to support the Singapore Judgment.” App.
6-8. Relying upon the factors that the Second Circuit
outlined in Republic of Ecuador v. Chevron Corp., 638
F.3d 384, 400 (2d Cir. 2011) concerning collateral
estoppel (i.e., issue preclusion), the Second Circuit
concluded that the Singapore judgment precluded BPS
“from relitigating the existence of an arbitration
agreement between it and CSCL.” App. 6. The Second
Circuit concluded that the question of arbitrability was
litigated in Singapore and “was necessary to the
Singapore Judgment . . . because the foreign action was
dismissed based on the absence of a contract between
CSCL and BPS . . . .” App. 7.
Finally, the Second Circuit rejected BPS’s argument
that the district court erred by permanently enjoining

2

However, the Second Circuit failed to address the Singapore
judgment’s acknowledgement that it was not deciding the
arbitrability of BPS’s claims. Had the Second Circuit addressed
this, it would have concluded that the Singapore courts did not
issue a final judgment adjudicating the parties’ dispute. See A-841
(In the Singapore Court of Appeal’s denial of BPS’s appeal and
extension of time, the court noted: “we stress that our view in this
regard is not intended to be a comment on the viability on [sic] the
plaintiff’s claim in arbitration proceedings overseas.”).

11
the arbitration. Relying on, inter alia, its decision in In
re American Express Financial Advisors Security
Litigation, 672 F.3d 113, 140 (2d Cir. 2011), the Second
Circuit concluded that an anti-arbitration injunction is
appropriate whenever a court determines that the
parties have not entered into a binding and valid
arbitration agreement. App. 8. Because the Second
Circuit found that the district court properly gave
preclusive effect to the Singapore judgment, it
therefore concluded that the district court’s antiarbitration injunction was appropriate. App. 8.
REASONS FOR GRANTING THE WRIT
I.

The Courts of Appeals Have Reached
Conflicting Results as to When a Court Is
Permitted to Enjoin an Arbitration

The Second Circuit here found that it was
permissible to enjoin an arbitration based on a general,
undefined remedial power, untethered to the
traditional factors that are generally considered prior
to granting injunctive relief. This conclusion aligns
with decisions from the Third and Fifth Circuits.
However, the Second Circuit’s approach is
irreconcilable with the approach taken by the Eighth,
Ninth, and Eleventh Circuits, which hold that the
power to enjoin an arbitration resides in the All Writs
Act, and is permissible only if the requirements of the
All Writs Act are met. The Second Circuit’s decision
also contrasts with the approach taken by the First and
Seventh Circuits. This Court’s review is needed to
clarify the circumstances under which a court is
permitted to issue an anti-arbitration injunction.

12
A. The First Circuit Has Found that the
Federal Arbitration Act Implies the
Power to Enjoin an Arbitration
The First Circuit has concluded that the Federal
Arbitration Act (“FAA”) implies the power to enjoin an
arbitration. Societe Generale de Surveillance, S.A. v.
Raytheon European Mgmt. & Sys. Co., 643 F.2d 863
(1st Cir. 1981). There, demands for arbitration had
been filed in Boston and Switzerland. Id. at 866. SGS,
the party seeking to avoid arbitration in Boston,
requested a temporary restraining order from the U.S.
District Court for the District of Massachusetts
enjoining the arbitration. Id. REMSCO, the party
seeking to have the arbitration proceed, in turn sought
an order compelling arbitration in Boston. Id. The
district court issued a temporary restraining order
prohibiting the Boston arbitration from proceeding, and
denied REMSCO’s motion to compel arbitration in
Boston. Id. at 866-67.
On appeal, the First Circuit rejected REMSCO’s
argument that the FAA “removes the district court’s
power to enjoin the Massachusetts arbitration.” Id. at
867. Rather, the First Circuit concluded that the FAA
“expressly provides federal courts with the power to
order parties to a dispute to proceed to arbitration
where arbitration is called for by the contract.” Id. at
868 (citing 9 U.S.C. § 3). The First Circuit then
concluded that: (i) enjoining an arbitration is not
inconsistent with the FAA; (ii) “to enjoin a party from
arbitrating where an agreement to arbitrate is absent
is the concomitant of the power to compel arbitration
where it is present”; and (iii) enjoining the arbitration

13
was consistent with state law. Id. The First Circuit
further concluded that reading the FAA not to permit
an injunction against arbitration “might actually
interfere with arbitration in the unusual case, arguably
present here, where one such arbitration proceeding
may interfere with another[,]” given the separate
arbitration in Switzerland. Id.
B. The Eighth, Ninth, and Eleventh
Circuits Have Found that a Court’s
Power to Enjoin an Arbitration Comes
from the All Writs Act
The Eighth, Ninth, and Eleventh Circuits—in
contrast to the First Circuit—have taken a narrower
view of the power to enjoin an arbitration. This is
perhaps best illustrated by the Eleventh Circuit’s
decision in Klay v. United Healthgroup, Inc., 376 F.3d
1092 (11th Cir. 2004). There, the Eleventh Circuit
concluded that: (i) “‘[w]rongful arbitration’ . . . is not a
cause of action for which a party may sue”; and (ii) to
the extent that a court has the power to enjoin an
arbitration, that power comes from the All Writs Act.
Id. at 1098, 1104.
In finding that the power to enjoin an arbitration
comes from the All Writs Act, the Eleventh Circuit
recognized that “[t]here are at least three different
types of injunctions a federal court may issue.” Id. at
1097.
First, the Eleventh Circuit explained that a court
may issue “a ‘traditional’ injunction, which may be
issued as either an interim or permanent remedy for
certain breaches of common law, statutory, or

14
constitutional rights. Granting such injunctions fall
within the long-recognized, inherent equitable powers
of the court.” Id. (footnote omitted). The Eleventh
Circuit further recognized that a party may obtain a
traditional injunction only if: (1) the moving party has
a substantial likelihood of success on the merits; (2) the
moving party will suffer irreparable injury unless the
injunction issues; (3) the threatened injury to the
movant outweighs whatever damage the proposed
injunction may cause the opposing party; and (4) an
injunction would not be adverse to the public interest.
Id.; see also Winter v. Nat. Res. Def. Council, Inc., 555
U.S. 7, 20 (2008) (setting forth the standard for
granting a preliminary injunction). “The standard for
a preliminary injunction is essentially the same as for
a permanent injunction with the exception that the
plaintiff must show a likelihood of success on the
merits rather than actual success.” Winter, 555 U.S. at
32 (internal quotation marks omitted); see also eBay
Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006)
(setting forth the standard for granting a permanent
injunction); Klay, 376 F.3d at 1097 (recognizing that
the standard for granting a traditional preliminary
injunction is largely the same as the standard for
granting a permanent injunction). The Eleventh
Circuit concluded that a court may not enjoin an
arbitration by way of a traditional injunction because
“‘[w]rongful arbitration[]’ . . . is not a cause of action for
which a party may sue.” Klay, 376 F.3d at 1098.
Second, the Eleventh Circuit found that a court may
issue “a ‘statutory’ injunction[,]” which “is available
where a statute bans certain conduct or establishes
certain rights, then specifies that a court may grant an

15
injunction to enforce the statute.” Id. The Eleventh
Circuit recognized that even when a statute specifically
provides for an injunction, there is usually an
“implicit[] require[ment] that the traditional
requirements for an injunction be met in addition to
any elements explicitly specified in the statute.” Id.;
accord eBay, 547 U.S. at 391-93 (recognizing that the
traditional test for injunctive relief applies for the
purposes of granting a permanent injunction under the
Patent Act); Hecht Co. v. Bowles, 321 U.S. 321, 329-30
(1944) (recognizing that an equitable remedy provided
by statute is presumed to be subject to the standards of
traditional equity practice). The Eleventh Circuit
concluded that a statutory injunction is not available to
enjoin an arbitration because nothing in the FAA or in
any other federal statute provides for an antiarbitration injunction. Klay, 376 F.3d at 1099. Indeed,
the Eleventh Circuit recognized that although the FAA
“permits a federal court to compel arbitration based on
an arbitration clause in a written contract,” the FAA
“does not permit a court to enjoin arbitration based on
an issue’s nonarbitrability.” Id. at 1099 n.8 (citing 9
U.S.C. § 4).
Third, the Eleventh Circuit recognized that courts
have the power to issue injunctions under the All Writs
Act. Id. at 1099 (citing 28 U.S.C. § 1651). The All
Writs Act “does not create any substantive federal
jurisdiction[,]” but rather “is a codification of the
federal courts’ traditional, inherent power to protect
the jurisdiction they already have, derived from some
other source.”
Id.
In contrast to “traditional
injunctions,” which “are predicated upon some cause of
action,” injunctions under the All Writs Act “[are]

16
predicated upon some other matter upon which a
district court has jurisdiction.” Id. at 1100. The
Eleventh Circuit then concluded that “[i]f the
injunction in this case is to be upheld, it must be under
the All Writs Act.” Id. at 1104.
The Eleventh Circuit then reversed the district
court’s anti-arbitration injunction. In reversing, the
Eleventh Circuit noted that courts generally should not
enjoin an arbitration simply “out of fear of possible res
judicata effects” that could prevent the dispute from
being adjudicated on the merits separately in federal
court. Id. at 1110-11.
The Ninth Circuit likewise has held that the power
to enjoin an arbitration comes from the All Writs Act.
Hartley v. Stamford Towers Ltd. P’ship, 36 F.3d 1102,
1994 WL 463497 (9th Cir. Aug. 26, 1994)
(unpublished). There, the Ninth Circuit held that the
district court properly enjoined an arbitration, where
the injunction was issued for the purpose of enforcing
the district court’s prior judgment in a class-action
case. Id. at *4.
The Eighth Circuit has also held that a federal court
has the right to uphold its judgments by way of an antiarbitration injunction under the All Writs Act.
Specifically, the Eighth Circuit explained that “[n]o
matter what, courts have the power to defend their
judgments as res judicata, including the power to
enjoin or stay subsequent arbitrations.” In re Y & A
Grp. Sec. Litig., 38 F.3d 380, 382 (8th Cir. 1994). The
Eighth Circuit then: (i) found that the power to enjoin
an arbitration comes from the All Writs Act; and
(ii) concluded that an injunction under the All Writs

17
Act was proper to enjoin an arbitration covering the
same subject matter as an earlier federal consent
judgment. Id. at 383-84.
C. The Seventh Circuit Has Found that the
Propriety of an Anti-Arbitration
Injunction Is Governed by Traditional
Equitable Principles
The Seventh Circuit has held that an antiarbitration injunction is proper only if traditional
principles of equity are satisfied. AT&T Broadband,
LLC v. Int’l Broth. of Elec. Workers, 317 F.3d 758 (7th
Cir. 2003). There, the Seventh Circuit affirmed the
denial of an anti-arbitration injunction because the
party seeking an injunction could not show irreparable
harm. Id. at 761-63. In particular, the Seventh Circuit
explained that “[i]f AT&T loses in the arbitration, the
union will seek to enforce its victory; AT&T can defend
on the theory that it had not agreed to arbitrate this
kind of dispute.” Id. at 762. For this reason, the
Seventh Circuit “ha[s] held it sanctionably frivolous to
seek an anti-arbitration injunction.” Id. (citations
omitted); see also Trustmark Ins. Co. v. John Hancock
Life Ins. Co. (U.S.A.), 631 F.3d 869, 872 (7th Cir. 2011)
(holding that irreparable harm must be shown in order
to issue injunctions against arbitration). Under the
Seventh Circuit’s approach, an anti-arbitration
injunction will rarely be warranted.

18
D. The Second, Third, and Fifth Circuits
Have Found that Courts Have a Broad
Remedial Power to Enjoin an
Arbitration
The Second, Third, and Fifth Circuits—in contrast
to the First Circuit, and in even sharper contrast to the
Seventh, Eighth, Ninth and Eleventh Circuits—have
found that courts have a broad power to issue
injunctions against arbitration.
The Second Circuit has adopted a broad view of
courts’ power to enjoin an arbitration. In re Am.
Express Fin. Advisors Sec. Litig., 672 F.3d 113 (2d Cir.
2011). There, a class action ended in a Settlement
Agreement, and the U.S. District Court for the
Southern District of New York retained jurisdiction
over all disputes arising from the Settlement
Agreement. Id. at 121-22. Two class members (“the
Belands”) subsequently commenced arbitration
proceedings. Id. at 123. Prior to the scheduled
arbitration hearing, the defendants filed a motion with
the district court, seeking to enforce the Settlement
Agreement by way of enjoining the arbitration
proceeding. Id. at 124-25. The district court granted
the motion and ordered the Belands to dismiss their
arbitration complaint with prejudice. Id. at 125-26.
The Belands then appealed to the Second Circuit. Id.
at 126.
On appeal, the Second Circuit recognized that
although the FAA “explicitly authorize[s] a district
court to stay litigation pending arbitration” and also
authorizes a court “to compel arbitration,” the FAA
“nowhere . . . explicitly confer[s] on the judiciary the

19
authority to . . . enjoin a private arbitration.” Id. at 140
(citing 9 U.S.C. §§ 3-4). Nevertheless, the Second
Circuit held that “at least where the court
determines . . . that the parties have not entered into a
valid and binding arbitration agreement, the court has
the authority to enjoin the arbitration proceedings.”
Id.
In reaching this conclusion, the Second Circuit
recognized that the Eighth, Ninth, and Eleventh
Circuits had found that the power to enjoin an
arbitration is based on the standards set forth in the
All Writs Act. Id. at 141 n.20 (citing Klay, 376 F.3d at
1099; In re Y & A Grp. Sec. Litig., 38 F.3d at 382-83;
Hartley, 1994 WL 463497, at *3-4). Nevertheless, the
Second Circuit found that the power to enjoin an
arbitration could be found based “on a reading of the
FAA, FINRA Rule 12200, and the Settlement
Agreement.” Id. The Second Circuit particularly
emphasized that because the district court retained
jurisdiction over the Settlement Agreement, “the
district court here could properly enjoin the private
arbitration of claims already settled and released by
class members such as the Belands.” Id. The Second
Circuit therefore did not reach the question of whether
the All Writs Act, in an appropriate case, could provide
a separate basis for enjoining an arbitration. Id.
However, the Second Circuit’s decision makes clear its
view that the All Writs Act does not define the outer
bounds of a district court’s ability to enjoin an
arbitration. Id.
Although the Second Circuit cited the First Circuit’s
decision in Societe Generale de Surveillance (see id. at

20
141), the Second Circuit—unlike the First Circuit—did
not find that the power was limited to an implied
power under the FAA. Rather, the Second Circuit
found that the power to issue an anti-arbitration
injunction is far-reaching, and can be exercised when
parties have entered into a settlement agreement over
which a district court has retained jurisdiction. Id. at
141 n.20. The Second Circuit has subsequently
confirmed its broad view of a court’s power to enjoin an
arbitration, explaining that “[f]ederal courts generally
have remedial power to stay arbitration[,]” and noting
that it “routinely enjoin[s] out-of-state arbitrations.”
Goldman, Sachs & Co. v. Golden Empire Schs. Fin.
Auth., 764 F.3d 210, 213-14 (2d Cir. 2014) (citations
omitted).
If there was any doubt about the breadth of the
Second Circuit’s holding in In re American Express
Financial Advisors Securities Litigation and its cases
that followed, that doubt was dispelled by the Second
Circuit’s decision in the instant case. Here, the district
court enjoined BPS from proceeding with the
arbitration despite the fact that: (i) there was no
settlement agreement between the parties over which
the district court retained jurisdiction; and (ii) there
was no judgment from—or pending proceeding in—a
United States court that considered BPS’s claims on
the merits. Nevertheless, the district court—based
solely on its interpretation of the Singapore
judgment—determined that BPS’s arbitration could not
proceed. Indeed, the district court concluded that “it
does not have to satisfy the traditional factors courts
consider in granting injunctive relief in order to enjoin
an arbitration[,]” and held, in line with Second Circuit

21
case law, that “[a] court’s finding that there is no
agreement to arbitrate is all that is required to enable
it to enjoin an arbitration.” App. 31-32 n.15. The
Second Circuit affirmed, holding that a permanent
injunction was warranted based solely on the district
court’s decision to “accord[] preclusive effect to the
Singapore Judgment, which held that BPS and CSCL
had not entered into a valid and binding arbitration
agreement.” App. 8.
The Third Circuit has taken a similarly broad view
of courts’ power to enjoin an arbitration. In particular,
the Third Circuit held that “[i]f a court determines that
a valid arbitration agreement does not exist or that the
matter at issue clearly falls outside of the substantive
scope of the agreement, it is obliged to enjoin
arbitration.” PaineWebber Inc. v. Hartmann, 921 F.2d
507, 511 (3d Cir. 1990), abrogated on other grounds by
Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79
(2002); see also John Hancock Mut. Life Ins. Co. v.
Olick, 151 F.3d 132, 136 (3d Cir. 1998) (citing 9 U.S.C.
§§ 3-4) (“[T]he FAA allows a district court to compel, or
enjoin, arbitration as the circumstances may dictate.”);
Dorco Co. v. Gillette Co., C.A. No. 18-1306-LPS-CJB,
2019 WL 1874466, at *2 (D. Del. Mar. 18, 2019)
(quoting PaineWebber Inc., 921 F.2d at 511) (“Where,
as here, the Court has determined ‘that the matter at
issue clearly falls outside of the substantive scope of
the agreement, it is obliged to enjoin arbitration.’”).
The Fifth Circuit likewise has adopted a broad view
of courts’ power to issue anti-arbitration injunctions.
Miller Brewing Co. v. Fort Worth Distrib. Co., 781 F.2d
494 (5th Cir. 1986). There, the Fifth Circuit held that

22
an anti-arbitration injunction was warranted in order
to enforce the res judicata effect of a Texas state-court
judgment. Id. at 498-501.
II.

This Case Is the Proper Vehicle for the
Court to Address This Important Issue

This case is an ideal vehicle to address the question
presented. There can be no doubt that the Second
Circuit has adopted a rule whereby a court may
permanently enjoin an arbitration based solely on its
conclusion that the parties have not entered into an
agreement to arbitrate. The district court, applying
Second Circuit precedent, concluded that: (i) “it does
not have to satisfy the traditional factors courts
consider in granting injunctive relief in order to enjoin
an arbitration”; and (ii) “[a] court’s finding that there is
no agreement to arbitrate is all that is required to
enable it to enjoin an arbitration[.]” App. 31-32 n.15
(citations omitted). And the Second Circuit affirmed,
finding that because the district court had concluded
that the parties had not agreed to arbitrate, “the
district court had the authority to permanently enjoin
the arbitration proceeding.” App. 8.
Moreover, the question presented is important. As
one leading commentator has recognized, “[T]he
question of whether US courts may enjoin an
arbitration in the absence of such agreement remains
controversial.” Jennifer L. Gorskie, US Courts and the
Anti-Arbitration Injunction, 28 ARB. INT’L 295, 295
(2012). The article noted that “[o]n a purely textual
reading, there is no basis in the FAA, nor in the New
York Convention or Panama Convention, for a court to
enjoin arbitration.” Id. at 296. Accordingly, courts in

23
many countries “refuse to issue anti-arbitration
injunctions in nearly all circumstances, even where the
court doubts the existence of the arbitration
agreement.” Id. However, the “lack of clarity” as to the
propriety of anti-arbitration injunctions from United
States courts “is contributing to confusion in the case
law, and may even threaten to expand the potential
reach of the anti-arbitration injunction far past what
our international brethren would consider
appropriate.” Id.
This Court’s guidance is needed so parties can have
certainty as to when a court is permitted to enjoin an
arbitration. As it stands now, some circuits permit
anti-arbitration injunctions as a matter of course,
others allow anti-arbitration injunctions only when the
requirements of the All Writs Act are met, one circuit
has all but prohibited anti-arbitration injunctions, and
at least one other circuit takes an intermediate
approach. Moreover, as explained in more detail infra,
the circuits do not agree on when the All Writs Act can
support the issuance of an anti-arbitration injunction
to address concerns related to preclusion by a prior
federal judgment.
The need for this Court’s guidance is especially
acute here, given that the Second Circuit—where a
significant percentage of arbitration-related disputes
occur (cf. INT’L CHAMBER OF COM., ICC DISPUTE
RESOLUTION BULLETIN 2018 ISSUE 2: EXTRACT 61
(2018), https://cdn.iccwbo.org/content/uploads/sites/3/
sites/3/2018/07/2017-icc-dispute-resolution-statistics.
pdf (stating that New York law was the most
frequently chosen choice of law provision where parties

24
chose the United States as the forum for the governing
law of the contract))—has adopted a broad rule
favoring the issuance of anti-arbitration injunctions.
This rule conflicts with the strong federal policy in
favor of arbitration.
AT&T Mobility LLC v.
Concepcion, 563 U.S. 333, 345-46 (2011) (“[T]he FAA
was designed to promote arbitration. [This Court’s
cases] have repeatedly described the Act as
‘embod[ying] [a] national policy favoring
arbitration’ . . . and ‘a liberal federal policy favoring
arbitration agreements, notwithstanding substantive
or procedural policies to the contrary[.]’”) (citations
omitted); David L. Threlkeld & Co. v.
Metallgesellscheft, Ltd., 923 F.2d 245, 248 (2d Cir.
1991) (citing Rodriguez de Quijas v. Shearson/Am.
Express, Inc., 490 U.S. 477 (1989)) (recognizing that
“federal policy strongly favors arbitration as an
alternative dispute resolution process,” noting that
“federal arbitration policy requires that ‘any doubts
concerning the scope of arbitrable disputes should be
resolved in favor of arbitration,’” and explaining that
“[t]he policy in favor of arbitration is even stronger in
the context of international business transactions.”).
Allowing anti-arbitration injunctions to issue as a
matter of course unduly frustrates the strong federal
policy in favor of arbitration. This case illustrates the
danger of granting anti-arbitration injunctions
reflexively. Based on its view (strongly disputed by
BPS) that the Singapore judgment was a final decision
that resolved the dispute between the parties, the
district court enjoined the arbitration. Had the district
court allowed the arbitration to proceed, the dispute
would have been adjudicated by a group of arbitrators

25
having expertise in the area of international maritime
disputes. A-558. Those arbitrators would have been in
an especially good position to analyze the factual
details necessary to a determination of whether the
Singapore proceedings resulted in a final decision (as
CSCL has argued and the district court has held) or
merely an interlocutory decision (as BPS maintains).
See, e.g., Shearson/Am. Express, Inc. v. McMahon, 482
U.S. 220, 239 (1987) (recognizing that “access to
expertise” is a benefit of arbitration) (internal
quotation omitted); Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614, 633 (1985)
(recognizing that “adaptability and access to expertise
are hallmarks of arbitration” and that “[t]he
anticipated subject matter of the dispute may be taken
into account when the arbitrators are appointed”); cf.
Friends for All Children, Inc. v. Lockheed Aircraft
Corp., 717 F.2d 602, 607 (D.C. Cir. 1983) (“As the
affidavits make clear, the determinations of foreign law
that would have to be made to evaluate the availability
of adequate alternative fora are extremely difficult and
would require a great deal of expertise not readily
available to us.”).
III.

The Second Circuit’s Decision Is Incorrect

The Second Circuit erred in finding that a court has
a broad remedial power to enjoin an arbitration,
unmoored from the traditional prerequisites to
obtaining injunctive relief. Under the correct analysis,
a court should be permitted to issue an anti-arbitration
injunction only if the requirements under the All Writs
Act are satisfied. Accordingly, this Court should adopt
the reasoning of the Eleventh Circuit. The Court

26
should further conclude that the All Writs Act does not
permit injunctive relief where, as here, the arbitration
poses no obstacle to a federal court’s jurisdiction. But
even if the Court concludes that a court can issue an
anti-arbitration injunction as a remedy outside of the
All Writs Act, the Second Circuit erred in finding that
an anti-arbitration injunction can be issued as a matter
of course, without conducting an analysis under this
Court’s traditional four-factor test for determining the
propriety of injunctive relief.
A. An Anti-Arbitration Injunction Is
Justified Only When the Conditions of
the All Writs Act Are Satisfied
1. Because There Is No Cause of Action
for “wrongful arbitration,” the
Second Circuit Erred in Upholding
the District Court’s Grant of
Substantive Relief
As the Eleventh Circuit correctly held, “‘Wrongful
arbitration’ . . . is not a cause of action for which a
party may sue.” Klay, 376 F.3d at 1098. This holding
is well-supported, since nothing in the FAA or any
other statute explicitly confers a general power for
courts to enjoin an arbitration. Cf. Hall Street Assocs.
v. Mattel, Inc., 552 U.S. 576, 581-82 (2008) (“As for
jurisdiction over controversies touching arbitration, the
[Federal Arbitration] Act does nothing, being
something of an anomaly in the field of federal-court
jurisdiction in bestowing no federal jurisdiction but
rather requiring an independent jurisdictional basis.”)
(internal quotation marks omitted). Rather, the FAA
mentions anti-arbitration injunctions only in the

27
context of describing appellate jurisdiction. 9 U.S.C.
§ 16(a)(2) (providing that a party can take an
interlocutory appeal from an order granting,
continuing, or modifying an anti-arbitration
injunction); 9 U.S.C. § 16(b)(4) (providing that an
appeal generally cannot be taken from an order
refusing to enjoin an arbitration). However, nothing in
the Act describes the circumstances under which an
anti-arbitration injunction is permissible. As described
below, the lack of a substantive cause of action for
“wrongful arbitration” leads to the conclusion that the
power to enjoin an arbitration is derived from the All
Writs Act. But even if this Court held that the power
to enjoin an arbitration comes from a court’s traditional
remedial powers, there is no basis for the Second
Circuit’s conclusion that a party can obtain an antiarbitration injunction without satisfying this Court’s
longstanding requirements governing the issuance of
injunctive relief.
Moreover, because there is no cause of action for
“wrongful arbitration,” the Second Circuit erred in
upholding the district court’s decision to entertain
CSCL’s suit and grant CSCL affirmative relief. The
FAA specifically contemplates the appropriate
procedure when parties disagree on whether a dispute
is arbitrable. In particular, the FAA provides that
when a party refuses to arbitrate, the aggrieved party
“may petition any United States district court . . . for
an order directing that such arbitration proceed in the
manner provided for in such agreement.” 9 U.S.C. § 4.
Here, CSCL, believing that it had no obligation to
arbitrate, was entitled to refuse to participate. BPS, in
turn, could have filed a petition to compel arbitration,

28
and if the district court found that BPS’s petition
lacked merit, it would have denied the petition.
However, nothing in the FAA contemplates a district
court granting affirmative relief to a party seeking to
avoid arbitration. Indeed, the district court’s refusal to
permit any discovery (App. 30-31) illustrates the stark
contrast between: (i) proceedings to compel arbitration
under 9 U.S.C. § 4; and (ii) the truncated proceedings
that were utilized in CSCL’s request for an antiarbitration injunction. In § 4 proceedings, parties are
generally entitled to conduct at least limited discovery.
See Guidotti v. Legal Helpers Debt Resolution, L.L.C.,
716 F.3d 764, 774-76 (3d Cir. 2013) (recognizing that in
proceedings concerning a petition to compel arbitration
under 9 U.S.C. § 4, parties are generally entitled at
least to limited discovery); see also 9 U.S.C. § 4
(providing for a trial in actions to compel arbitration
where the parties raise an issue as to the “making of
the agreement for arbitration”). Had CSCL’s wrongfularbitration claim been subject to the procedural
protections generally afforded in § 4 proceedings, BPS
would have had the opportunity to present additional
evidence demonstrating, inter alia, that the Singapore
judgment was interlocutory and therefore not entitled
to preclusive effect.
Because there is no cause of action afforded to a
party who merely wants to avoid an arbitration, the
Second Circuit erred in upholding the district court’s
grant of affirmative relief.
“In the declaratory
judgment context, the normal principle that federal
courts should adjudicate claims within their
jurisdiction yields to considerations of practicality and
wise judicial administration.” Wilton v. Seven Falls

29
Co., 515 U.S. 277, 288 (1995). Here, the district court
should have declined to issue a declaratory judgment,
given that the FAA in no way suggests that a party
seeking to avoid arbitration is entitled to affirmative
relief. But at the very least, the district court should
be instructed to reconsider its decision to entertain
CSCL’s suit, in view of the fact that there is no cause of
action for “wrongful arbitration.”
2. The All Writs Act Would Not Have
Permitted the Issuance of an
Injunction Here
As the Eleventh Circuit correctly found, “The simple
fact that litigation involving the same issues is
occurring concurrently in another forum does not
sufficiently threaten the court’s jurisdiction as to
warrant an injunction under th[e] [All Writs Act].”
Klay, 376 F.3d at 1102-03. This conclusion is correct,
and applies with even greater force where—as
here—the alleged “litigation involving the same issues”
is not occurring in a United States forum. Indeed, the
injunction here was based entirely on the
determination that the Singapore judgment was to be
given binding effect.
Case law from the Second Circuit itself has
demonstrated that the injunction that the district court
issued here could not have been granted under the All
Writs Act. Citigroup, Inc. v. Abu Dhabi Inv. Auth., 776
F.3d 126 (2d Cir. 2015). There, Citigroup filed suit
seeking an anti-arbitration injunction against Abu
Dhabi Investment Authority (“ADIA”) where:
(i) Citigroup and ADIA were involved in an earlier
arbitration; (ii) the arbitrators returned an award in

30
favor of Citigroup; (iii) the district court confirmed the
award; (iv) ADIA appealed to the Second Circuit; and
(v) ADIA served Citigroup with a new notice of
arbitration during the pendency of the Second Circuit
appeal. Id. at 127-28. In support of its request for an
injunction, Citigroup invoked, inter alia, the All Writs
Act, and alleged that the second arbitration was barred
by res judicata due to the district court’s judgment
confirming the arbitration award. Id. The district
court refused to grant relief under the All Writs Act,
finding that Citigroup’s res judicata concerns were not
sufficient to justify relief under the All Writs Act. Id.
The Second Circuit affirmed. In its decision, the
Second Circuit recognized that other courts have
employed the All Writs Act “to enjoin arbitrations that
threaten to undermine federal judgments.” Id. at 129.
However, the Second Circuit concluded that where the
federal judgment at issue “simply confirm[s] the
arbitration award” in “a summary proceeding that
merely makes what is already a final arbitration award
a judgment of the court[,]” relief under the All Writs
Act is unwarranted. Id. at 132-33 (internal quotation
marks omitted). In particular, the Second Circuit
recognized that the district court, in confirming the
arbitration award: (1) “did not review the merits of any
of ADIA’s substantive claims or the context in which
those claims arose,” and (2) simply applied the
deferential review under the FAA. Id. “Under these
circumstances, a district court unfamiliar with the
underlying circumstances, transactions, and claims, is
not the best interpreter of what was decided in the
arbitration proceedings, the result of which it merely
confirmed.” Id. at 133. Accordingly, the Second Circuit

31
concluded that an anti-arbitration injunction could not
be properly issued under the All Writs Act.
Under the All Writs Act standard, which the Second
Circuit properly articulated in Citigroup, the Second
Circuit would have reversed the district court’s antiarbitration injunction here. Indeed, the case for All
Writs Act relief here is far less compelling than that in
Citigroup. Here, unlike Citigroup, there was no federal
judgment at all, let alone a federal judgment that was
entered after a “review [of] the merits of any of [BPS’s]
substantive claims or the context in which those claims
arose.” Id. Rather, the district court enjoined the
arbitration merely on the basis of the Singapore
judgment, even though the Singapore court “stress[ed]”
that its decision was “not intended to be a comment on
the viability” of “the plaintiff’s claim in arbitration
proceedings overseas.” A-841.
Under these circumstances, relief under the All
Writs Act is not appropriate. The All Writs Act permits
courts to issue injunctions only “in aid of their
respective jurisdictions and agreeable to the usages
and principles of law.” 28 U.S.C. § 1651(a); see also
Clinton v. Goldsmith, 526 U.S. 529, 534 (1999) (“While
the All Writs Act authorizes employment of
extraordinary writs, it confines the authority to the
issuance of process ‘in aid of’ the issuing court’s
jurisdiction.”). “Although that Act empowers federal
courts to fashion extraordinary remedies when the
need arises, it does not authorize them to issue ad hoc
writs whenever compliance with statutory procedures
appears inconvenient or less appropriate.” Pa. Bureau
of Corr. v. U.S. Marshals Serv., 474 U.S. 34, 43 (1985);

32
see also Goss Int’l. Corp. v. Man Roland
Druckmaschinen Aktiengesellschaft, 491 F.3d 355, 36566 (8th Cir. 2007) (holding that it is inappropriate to
enjoin a foreign proceeding under the All Writs Act
where a judgment had already issued in the parallel
United States litigation, and recognizing that the
binding effect of the United States judgment could be
vindicated by pleading res judicata in the foreign
proceeding). Similarly here, CSCL would be free to
raise res judicata or collateral estoppel as defenses in
the arbitration proceeding, and the arbitrators could
decide in the first instance the question of whether the
Singapore proceedings resulted in a final judgment as
to the parties’ disputes. See Citigroup, 776 F.3d at 13132 (recognizing that arbitrators generally should
decide, in the first instance, the preclusive effect of a
prior federal judgment). If All Writs Act relief is not
warranted to prevent a party from arbitrating the
question of the preclusive effect of a prior United
States federal judgment, then surely All Writs Act
relief cannot lie where—as here—the question before
the arbitrators is whether a Singapore judgment
should be given preclusive effect.
Where, as is true here, an arbitration poses no
threat to a federal judgment or an ongoing federal
proceeding, it is inappropriate to use the All Writs Act
to enjoin the arbitration. The FAA illustrates this
point by detailing the procedure to be followed when
there are questions about whether a dispute is properly
arbitrable. In particular, the Act provides, in relevant
part, that when a court finds that a dispute is subject
to arbitration, the court “shall on application of one of
the parties stay the trial of the action until such

33
arbitration has been had in accordance with the terms
of the agreement.” 9 U.S.C. § 3. Moreover, the Act
provides, in relevant part, that “[a] party aggrieved by
the alleged failure, neglect, or refusal of another to
arbitrate under a written agreement . . . may petition
any United States district court [having
jurisdiction] . . . for an order directing that such
arbitration proceed in the manner provided for in such
agreement.” Id. § 4. Additionally, once the arbitration
is completed, an appropriate U.S. District Court may,
in accordance with the Act, review the arbitral award,
and confirm or vacate the award as appropriate. Id.
§§ 9-13. Only after the district court enters judgment
does the arbitration award have binding effect. See id.
§ 13 (“The judgment so entered shall have the same
force and effect, in all respects, as, and be subject to all
the provisions of law relating to, a judgment in an
action; and it may be enforced as if it had been
rendered in an action in the court in which it is
entered.”). Put differently, “[b]ecause ‘[a]rbitration
awards are not self-enforcing,’ they must be given force
and effect by being converted to judicial orders by
courts; these orders can confirm and/or vacate the
award, either in whole or in part.” D.H. Blair & Co. v.
Gottdiener, 462 F.3d 95, 104 (2d Cir. 2006) (quoting
Hoeft v. MVL Grp., Inc., 343 F.3d 57, 63 (2d Cir. 2003))
(alteration in original).
Against this statutory backdrop, it will be a rare
case in which an anti-arbitration injunction can be
justified under the All Writs Act. Because any disputes
about arbitrability can be resolved: (i) during the
arbitration; or (ii) failing that, upon judicial review of
the arbitration award, the All Writs Act will rarely

34
permit a court to enjoin an ongoing arbitration. And
All Writs Act relief certainly will not lie where, as here,
such an injunction has no connection to the
enforcement or preservation of any United States
federal court judgment or proceeding.
B. Even if the Power to Enjoin an
Arbitration Comes from a Source Other
than the All Writs Act, the Second
Circuit’s Decision Conflicts with This
Court’s Precedents
As described above, the power to enjoin an
arbitration is found in the All Writs Act. But even if
this Court concluded that the power resides elsewhere,
the Second Circuit’s decision upholding the district
court’s permanent injunction is irreconcilable with this
Court’s precedents. “According to well-established
principles of equity,” a plaintiff may obtain a
permanent injunction only if: (1) it has suffered an
irreparable injury; (2) remedies available at law, such
as monetary damages, are inadequate to compensate
for that injury; (3) considering the balance of hardships
between the plaintiff and defendant, a remedy in
equity is warranted; and (4) the public interest would
not be disserved by a permanent injunction. eBay, 547
U.S. at 391. This Court recognized that even though
the Patent Act provides that patentees have the right
to exclude others from practicing their patented
inventions, it does not necessarily follow that patentees
are automatically entitled to permanent injunctions
upon establishing a violation of that right. Id. at 39194. Instead, patentees are required to satisfy the
traditional four-factor test for injunctive relief. Id. In

35
reaching this conclusion, this Court explained that “‘a
major departure from the long tradition of equity
practice should not be lightly implied.’” Id. at 391
(quoting Weinberger v. Romero-Barcelo, 456 U.S. 305,
320 (1982)).
Given this precedent, the Second Circuit erred in
adopting the district court’s conclusions that: (i) “it
does not have to satisfy the traditional factors courts
consider in granting injunctive relief in order to enjoin
an arbitration[;]” and (ii) “[a] court’s finding that there
is no agreement to arbitrate is all that is required to
enable it to enjoin an arbitration[.]” App. 31-32 n.15.
Rather, even assuming arguendo that a court’s power
to enjoin an arbitration is based on its authority to
afford a litigant a remedy under federal law—as
opposed to a court’s authority to aid its jurisdiction
under the All Writs Act—the Second Circuit erred in
concluding that an injunction can be granted without
consideration of traditional equitable principles. The
district court and the Second Circuit found that an
injunction was warranted without considering, for
example, BPS’s argument that CSCL failed to
demonstrate irreparable harm.
This Court’s
precedents do not support granting injunctive relief
where the plaintiff fails to make such a showing. For
example, this Court found that it was impermissible for
the Federal Circuit to adopt “a general rule, unique to
patent disputes, that a permanent injunction will issue
once infringement and validity have been adjudged.”
eBay, 547 U.S. at 393-94 (internal quotation marks
omitted). Here, the Second Circuit was in error to
adopt a rule—unique to arbitration disputes—that an

36
injunction shall issue whenever a district court
concludes that the parties did not agree to arbitrate.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
HAUG PARTNERS LLP
Jonathan A. Herstoff, Esq.
Counsel of Record
Jessica L. Sblendorio, Esq.
745 Fifth Avenue
New York, New York 10151
212-588-0800
jherstoff@haugpartners.com
Counsel for Petitioner
Big Port Service DMCC

